SIGAR                                Special Inspector General for
                                      Afghanistan Reconstruction




                                                   SIGAR Financial Audit 13-3




     Audit of Costs Incurred by Futures Group International, LLC
     in Support of USAID’s Project for Expanding Access to
     Private Sector Health Products and Services in Afghanistan




                                                           JUNE
                                                          2013

SIGAR Financial Audit 13-3
June 6, 2013


Dr. Rajiv Shah
Administrator
U.S. Agency for International Development

Dr. S. Ken Yamashita
Mission Director for Afghanistan
U.S. Agency for International Development


This letter transmits the results of our audit of costs incurred by Futures Group International, LLC under a
USAID contract, “Communications for Behavior Change: Expanding Access to Private Sector Health Products and
Services in Afghanistan.”1 The audit covered the period February 15, 2006, through May 12, 2012 and was
performed by Regis & Associates with SIGAR oversight. It covered $37,551,423 in expenditures, $4,011,141
of which were indirect costs.2
Futures Group develops and delivers health and well-being programs at a local level worldwide and principally
supports global health objectives of the United States Government, humanitarian organizations and
foundations, and other non-governmental organizations. The purpose of this contract was to assist the Afghan
government with developing and supporting local health care.
The specific objectives of the audit were to
        render an opinion on the fair presentation of Futures Group’s Fund Accountability Statement;3
        determine and report on whether Futures Group has taken corrective action on recommendations
         from prior audits or assessments;
        identify and report on significant deficiencies, including any material weaknesses, in Futures Group’s
         internal financial controls; and
        identify and report on instances of material noncompliance with terms of the award and with
         applicable laws and regulations.
In contracting with an independent audit firm and drawing from the results of their audit, SIGAR is required by
auditing standards to provide oversight of the audit work performed. Accordingly, SIGAR reviewed Regis &
Associates’ audit results and found them to be in accordance with generally accepted government auditing
standards.
Regis & Associates found that the Fund Accountability Statement presented fairly, in all material respects,
revenues received and costs incurred under the contract and identified no recommendations from prior audits
or assessments for follow-up or corrective action. Nevertheless, they reported two internal control deficiencies
and two instances of noncompliance, which prompted the auditors to question a total of $45,445 in costs. The



1 USAID contract no. GPO-I-00-04-00015-00.
2 Regis & Associates’ review of indirect costs was limited to re-computing the indirect costs based on indirect rates
approved by USAID.
3 The Fund Accountability Statement is a special purpose financial statement that includes all revenues received, costs

incurred, and any remaining balance for a given award during a given period.
$45,445 in questioned costs included $43,044 in unsupported costs4 and $2,401 in ineligible costs.5 The
unsupported costs pertained primarily to costs incurred for travel, equipment, medical and life insurance, sales
commissions, and conferences and meetings. The ineligible costs related to a fine/penalty on electricity
charged to the contract, equipment costs in excess of the vendor invoice amount, and an airfare refund not
credited to the contract. See table 1 below.
Table 1 - Summary of Questioned Costs
            Category                  Questioned Costs Total                    Ineligible            Unsupported

 Other Direct Costs                                            $45,445                       $2,401          $43,044

Given the results of the audit, SIGAR recommends that the Mission Director of USAID/Afghanistan:
    1. Determine the allowability of and recover, as appropriate, $45,445 in questioned costs identified in
       the report.
We will be following up with your agency to obtain information on the corrective actions taken in response to
our recommendation.




John F. Sopko
Special Inspector General
 for Afghanistan Reconstruction

Enclosure




4 Unsupported costs are those costs for which adequate or sufficient documentation necessary for the auditor to determine

the propriety of costs was not made available.
5 Ineligible costs are costs that the auditor has determined to be unallowable. These costs are recommended for exclusion

from the Fund Accountability Statement and for review by USAID to make a final determination regarding allowability.




                                                           2
    SPECIAL INSPECTOR GENERAL
 FOR AFGHANISTAN RECONSTRUCTION




             REPORT ON

FINANCIAL AUDIT OF COSTS INCURRED BY
  FUTURES GROUP INTERNATIONAL, LLC
               UNDER
 CONTRACT NUMBER GPO-I-00-04-00015-00

          FOR THE PERIOD
FEBRUARY 15, 2006 THROUGH MAY 12, 2012




                                MANAGEMENT CONSULTANTS &
                               CERTIFIED PUBLIC ACCOUNTANTS
                                                  Table of Contents

                                                                                                                     Page

Executive Summary………………………………………………….……………………i

Independent Auditors’ Report on the Fund Accountability Statement................................1

Fund Accountability Statement............................................................................................2

Notes to the Fund Accountability Statement .......................................................................3

Independent Auditors’ Report on Internal Control..............................................................5

Independent Auditors’ Report on Compliance ....................................................................7

Summary of Findings and Recommendations .....................................................................8

Appendices:

Appendix A – Futures Group Response to the Draft Report .............................................10
                                EXECUTIVE SUMMARY

Summary of Results

The Special Inspector General for Afghanistan Reconstruction (SIGAR), contracted with
Regis & Associates, PC to perform a financial audit of costs incurred by Futures Group
International, LLC (Futures Group) under Contract Number GPO-I-00-04-00015-00,
Expanding Access to Private Sector Health Products and Services in Afghanistan, between
Futures Group and United States Agency for International Development (USAID) for the
period February 15, 2006 through May 12, 2012. As a result of applying audit procedures in
accordance with Government Auditing Standards, we concluded that the Fund Accountability
Statement presents fairly, in all material respects, program revenues, costs incurred and
reimbursed, and items and technical assistance directly procured by United States Agency for
International Development, for the period February 15, 2006 through May 12, 2012, in
accordance with the terms of the agreement, and in conformity with accounting principles
generally accepted in the United States of America. However, we questioned costs totaling
$45,445, as shown in the Fund Accountability Statement on page 2 of this report, and in the
Summary of Findings and Recommendations section beginning on page 8 of this report. A
questioned cost is an alleged violation of a provision of law, regulation, contract, grant,
cooperative agreement, or other agreement or document governing the expenditure of Federal
funds; or a finding that, at the time of testing, such cost is not supported by adequate
documentation.

Costs Claimed and Questioned Costs: Futures Group claimed total costs of $37,551,423
during the period covered by the financial audit. As a result of testing a judgmentally
selected sample of transactions, we questioned costs as shown below:

                   Questioned Costs Type             Amount
                   Unsupported                        $ 43,044
                   Ineligible                         $ 2,401
                   Total                              $ 45,445

Details of the questioned costs are discussed in Findings 1 and 2 in the Summary of Findings
and Recommendations section beginning on page 8 of this report.

Internal Control and Compliance: The detailed results from applying our audit procedures
showed instances of non-compliance with contract provisions, regulations, or USAID
specific requirements. The areas of non-compliance identified are presented in the Summary
of Findings and Recommendations section beginning on page 8 of this report, and in the
Independent Auditors’ reports on Internal Control and Compliance. The areas of non-
compliance are presented below:

              Adequate records were not retained to support claimed costs.
              Costs claimed were not allowable or reasonable.




                                              i
Corrective Action on Prior External Audit Report Recommendations or Other External
Assessment Recommendations: Our review of prior external audit reports or other external
assessments did not disclose any recommendations. Hence, no follow-up or corrective
actions are required to be taken by auditee.

Audit Objectives, Scope, and Methodology: The objectives of the audit were:

Audit Objective 1 - Internal Controls: Evaluate and obtain a sufficient understanding of the
audited entity's internal control related to the award; assess control risk; and identify and
report on significant deficiencies including material internal control weaknesses.

Audit Objective 2 – Compliance: Perform tests to determine whether the audited entity
complied, in all material respects, with the award requirements and applicable laws and
regulations; and identify and report on instances of material noncompliance with terms of the
award and applicable laws and regulations, including potential fraud or abuse that may have
occurred.

Audit Objective 3 - Corrective Action on Prior Audit Recommendations: Determine and
report on whether the audited entity has taken adequate corrective action on prior external
audit report recommendations or other external assessment recommendations.

Audit Objective 4 - Fund Accountability Statement: Express an opinion on whether the Fund
Accountability Statement for the award presents fairly, in all material respects, revenues
received, costs incurred, items directly procured by the U.S. Government and fund balance
for the period audited in conformity with the terms of the award and generally accepted
accounting principles or other comprehensive basis of accounting.

Our audit covered the period February 15, 2006 through May 12, 2012.

We conducted this financial audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions, based on our audit objectives. As part of that process, we: 1) performed audit
planning and risk assessment to gain an understanding of the nature of Futures Group’s
contract awarded by USAID; Futures Group’s accounting system used for recording costs
under the contract; and the conditions under which Futures Group managed its USAID
contract, by reviewing such items as the contract, modifications, applicable regulations,
accounting policies and procedures manuals, reports by others, and internal controls over
contract financial management and administration; 2) evaluated and obtained a sufficient
understanding of the audited entity's internal control related to the award; assessed control
risk; and identified and reported on significant deficiencies including material internal
control weaknesses; 3) determined whether the audited entity complied, in all material
respects, with the award requirements and applicable laws and regulations; and identified and
reported on instances of material noncompliance with terms of the award and applicable laws
and regulations, including potential fraud or abuse that may have occurred; 4) determined
and reported on whether the audited entity has taken adequate corrective action on prior



                                             ii
external audit report recommendations or other external assessment recommendations; and 5)
expressed an opinion on whether the Fund Accountability Statement for the award presents
fairly, in all material respects, revenues received, costs incurred, items directly procured by
the U.S. Government and fund balance for the period audited in conformity with the terms of
the award and generally accepted accounting principles or other comprehensive basis of
accounting.

Based on our initial assessment of risk related to controls and adequacy of contract financial
reporting, we judgmentally selected a sample of CPSRs and tested the allowability,
allocability and reasonableness of costs claimed by Futures Group on the contract. The
Contract Project Status Report (CPSR) detailed the costs charged to the contract, for the
periods covered by the total amount claimed on the contract. We selected four CPSR with
highest amounts, in each of the years 2006 through 2012, totaling 28; and the two CPSRs
with negative balances. The total sample of claimed costs selected and tested represented,
approximately, 49% of the total claimed costs, less applied fee by Futures Group. We
performed our audit procedures during the period December 19, 2012, through March 15,
2013.

Background

Futures Group develops and delivers local health and well-being solutions worldwide.
Futures Group principally supports global health objectives of the United States Government,
humanitarian organizations and foundations, and other non-governmental organizations.

The Futures Group entered into a cost plus fixed fee contract number GPO-I-00-04-00015-
00, Expanding Access to Private Sector Health Products and Services in Afghanistan, with
the United States Agency for International Development (USAID) for the period February
15, 2006 through May 12, 2012; and received payments of approximately $37.5 million, over
a 76 month period. The purpose of this contract was to assist the Afghanistan government
with developing and supporting local health care solutions.

Exit Conference

We held an exit conference on May 1, 2013, with personnel from Futures Group, USAID and
SIGAR to discuss the results of the audit. The draft audit report findings and
recommendations were discussed, and Futures Group concurred with the findings and
recommendations. Below is our summarization of Futures Group’s written response to the
draft audit report. The complete text of Futures Group’s response is attached to this report as
Appendix- A.

Summary Auditee’s Comment to Draft Report

In its written response, Futures Group’s management concurred with the findings and
recommendations. Futures Group’s management also stated that they will refund to USAID
the ineligible costs and unsupported costs, to the extent that satisfactory transaction records
are not identified for the unsupported costs.



                                              iii
      MANAGEMENT CONSULTANTS &
     CERTIFIED PUBLIC ACCOUNTANTS


                        INDEPENDENT AUDITORS’ REPORT ON
                       THE FUND ACCOUNTABILITY STATEMENT

To the Board of Directors
Futures Group International, LLC
One Thomas Circle, NW, Suite 200
Washington, DC 20005

We have audited the Fund Accountability Statement of Futures Group International, LLC for
contract number GPO-I-00-04-00015-00 for the period February 15, 2006 through May 12, 2012.
The Fund Accountability Statement is the responsibility of Futures Group International, LLC’s
management. Our responsibility is to express an opinion on the Fund Accountability Statement
based on our audit.

We conducted our audit of the Fund Accountability Statement, in accordance with Government
Auditing Standards, issued by the Comptroller General of the United States. Those standards
require that we plan and perform the audit to obtain reasonable assurance about whether the Fund
Accountability Statement is free of material misstatement. An audit includes examining, on a
test basis, evidence supporting the amounts and disclosures in the Fund Accountability
Statement. An audit also includes assessing the accounting principles used, and significant
estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audit provides a reasonable basis for our opinion.

In our opinion, the Fund Accountability Statement referred to above presents fairly, in all
material respects, program revenues, costs incurred and reimbursed, and items and technical
assistance directly procured by United States Agency for International Development, for the
period February 15, 2006 through May 12, 2012, in accordance with the terms of the agreement,
and in conformity with accounting principles generally accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued our reports, dated
March 15, 2013, on our consideration of Futures Group, Inc.’s internal control over financial
reporting, and our tests of its compliance with certain provisions of laws and regulations. Those
reports are an integral part of an audit performed in accordance with Government Auditing
Standards, and should be read in conjunction with this Independent Auditor’s Report in
considering the results of our audit.

This report is intended for the information of Futures Group International, LLC, United States
Agency for International Development, and Special Inspector General for Afghanistan
Reconstruction. Financial information in this report may be privileged. The restrictions of 18
USC 1905 should be considered before any information is released to the public.




Regis & Associates, PC
Washington, DC

March 15, 2013

     1400 Eye Street, NW, Suite 425, Washington, D.C. 20005 Tel 202-296-7101 Fax 202-296-7284
                        FUTURES GROUP INTERNATIONAL, LLC
                       FUND ACCOUNTABILITY STATEMENT FOR
                     CONTRACT NUMBER GPO-I-00-04-00015-00 WITH
              UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT
                       FEBRUARY 15, 2006 THROUGH MAY 12, 2012

                                                                          Questioned Costs
Revenues                                 Budget           Actual       Unsupported    Ineligible   Notes
Total Award Contract Number
GPO-I-00-04-00015-00                 $38,936,211      $37,551,423
Total Revenue                        $38,936,211      $37,551,423

Costs Incurred
Work Days Ordered                    $ 4,366,922      $ 4,044,738
Overseas Allowances                  $ 1,397,087      $ 1,370,820
Other Direct Costs                   $ 6,983,408      $ 6,856,672           $43,044       $2,401     3
Subcontracts & Grants                $19,975,002      $19,310,395
Indirect Costs                       $ 4,183,962      $ 4,011,141
Ceiling Fee                          $ 2,029,830      $ 1,957,657
Total Cost Incurred                  $38,936,211      $37,551,423           $43,044       $2,401
Outstanding Fund Balance (Total
Revenue less Total Costs Incurred)   $            0   $            0




           The accompanying notes are an integral part of this Fund Accountability Statement




                                                      2
             NOTES TO THE FUND ACCOUNTABILITY STATEMENT

NOTE 1:       ORGANIZATION AND PURPOSE

Futures Group International, LLC (Futures Group) develops and delivers local health and
well-being solutions worldwide. Futures Group principally supports global health objectives
of the United States Government, humanitarian organizations and foundations, and other
non-governmental organizations.

The Futures Group entered into a cost plus fixed fee contract number GPO-I-00-04-00015-
00, with the United States Agency for International Development (USAID) for the period
February 15, 2006 through May 12, 2012; and received payments of approximately $37.5
million, over a 76 month period. The purpose of this contract was to assist the Afghanistan
government with developing and supporting local health care solutions.


NOTE 2:       SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

Basis of Presentation
The accompanying financial statement has been prepared in accordance with accounting
principles, generally accepted in the United States of America, as prescribed by the American
Institute of Certified Public Accountants.

Reporting Entity
The accompanying Fund Accountability Statement reports the Contract revenues, costs
incurred and fund balance for the period February 15, 2006 through May 12, 2012, in
accordance with the terms of the Contract, and in conformity with accounting principles
generally accepted in the United States of America.

Measurement Focus, Basis of Accounting, and Financial Statement Presentation
The Fund Accountability Statement of the Contract is reported, using the economic resources
measurement focus and the accrual basis of accounting. Revenues are recorded when earned,
and expenses are recognized when costs are incurred.


NOTE 3:       UNSUPPORTED AND INELIGIBLE COSTS

There were unsupported costs totaling, approximately, $35,810 included in “other direct
costs” claimed by Futures Group. The costs were for:

      Travel and Travel Related, $6,310;
      Conferences & Meetings, $3,180;
      Office Supplies, $26;
      Equipment, $10,992;
      Medical & Life Insurance, $3,000;
      Purchased Services, $1,569;


                                              3
      Sales Commission, $7,569;
      Warehouse Expense, $762;
      Local Consultant, $909;
      Bank Charges, $1,149; and
      Cost of Living Adjustment, $344.

As a result of these unsupported costs, indirect costs chargeable to the contract were over-
applied by $7,234, which resulted in unsupported other direct costs, totaling $43,044. See
Finding 1 for detail.

Also included in the “other direct costs” claimed are ineligible costs totaling, approximately,
$1,997. The costs were for:

      Fine/Penalty on Electricity, $454;
      Airfare unapplied refund, $613; and
      Equipment, $930.

As a result of these ineligible costs, indirect costs chargeable to the contract were over-
applied by $404, which resulted in ineligible other direct costs, totaling $2,401. See Finding
2 for detail.




                                               4
      MANAGEMENT CONSULTANTS &
     CERTIFIED PUBLIC ACCOUNTANTS




         INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL

To the Board of Directors
Futures Group International, LLC
One Thomas Circle, NW, Suite 200
Washington, DC 20005

We have audited the Fund Accountability Statement of Futures Group International, LLC for
contract number GPO-I-00-04-00015-00, for the period February 15, 2006 through May 12,
2012, and have issued our report thereon, dated March 15, 2013.

We conducted our audit in accordance with Government Auditing Standards, issued by the
Comptroller General of the United States. Those standards require that we plan and perform
the audit to obtain reasonable assurance about whether the Fund Accountability Statement is
free of material misstatement.

The management of Futures Group International, LLC is responsible for establishing and
maintaining internal control. In fulfilling this responsibility, estimates and judgments by
management are required to assess the expected benefits and related costs of internal control
policies and procedures. The objectives of internal control are to provide management with
reasonable, but not absolute, assurance that the assets are safeguarded against loss from
unauthorized use or disposition; transactions are executed in accordance with management's
authorization and in accordance with the terms of the agreements; and transactions are
recorded properly to permit the preparation of the Fund Accountability Statement in
conformity with accounting principles generally accepted in the United States of America.
Because of inherent limitations in internal control, errors or fraud may nevertheless occur and
not be detected. Also, projection of any evaluation of the structure to future periods is
subject to the risk that procedures may become inadequate because of changes in conditions
or that the effectiveness of the design and operation of policies and procedures may
deteriorate.

In planning and performing our audit of the Fund Accountability Statement of Futures Group
International, LLC for contract number GPO-I-00-04-00015-00, for the period February 15,
2006 through May 12, 2012, we obtained an understanding of internal control. With respect
to internal control, we obtained an understanding of the design of relevant policies and
procedures, and whether they have been placed in operation, and we assessed control risk in
order to determine our auditing procedures for the purpose of expressing our opinion on the
Fund Accountability Statement, and not to provide an opinion on internal control.
Accordingly, we do not express such an opinion.

Our consideration of internal control would not necessarily disclose all matters in internal
control that might be a deficiency under standards established by the American Institute of
Certified Public Accountants (AICPA).



     1400 Eye Street, NW, Suite 425, Washington, D.C. 20005 Tel 202-296-7101 Fax 202-296-7284
A deficiency in internal control exists when the design or operation of a control does not
allow management or employees, in the normal course of performing their assigned
functions, to prevent, or detect and correct misstatements on a timely basis. A material
weakness is a deficiency, or combination of deficiencies, in internal control, such that there is
a reasonable possibility that a material misstatement of the entity's financial statements will
not be prevented, or detected and corrected on a timely basis. We noted two instances
involving internal control and its operation that we consider to be deficiencies, as defined
above. Those instances are detailed in Findings 1 and 2 in the Summary of Findings and
Recommendations section of this report.

This report is intended for the information of Futures Group International, LLC, United States
Agency for International Development, and Special Inspector General for Afghanistan
Reconstruction. Financial information in this report may be privileged. The restrictions of 18
USC 1905 should be considered before any information is released to the public.




Regis & Associates, PC
Washington, DC

March 15, 2013




                                               6
      MANAGEMENT CONSULTANTS &
     CERTIFIED PUBLIC ACCOUNTANTS




               INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE

To the Board of Directors
Futures Group International, LLC
One Thomas Circle, NW, Suite 200
Washington, DC 20005


We have audited the Fund Accountability Statement of Futures Group International, LLC for
contract number GPO-I-00-04-00015-00, for the period February 15, 2006 through May 12,
2012, and have issued our report thereon, dated March 15, 2013.

We conducted our audit in accordance with Government Auditing Standards, issued by the
Comptroller General of the United States. Those standards require that we plan and perform
the audit to obtain reasonable assurance about whether the Fund Accountability Statement is
free of material misstatement resulting from violations of agreement terms, and laws and
regulations that have a direct and material effect on the determination of the Fund
Accountability Statement amounts.

Compliance with agreement terms, and laws and regulations applicable to Futures Group
International, LLC is the responsibility of Futures Group International, LLC’s management.
As part of obtaining reasonable assurance about whether the Fund Accountability Statement
is free of material misstatement, we performed tests of Futures Group International, LLC’s
compliance with certain provisions of agreement terms, and laws and regulations. However,
our objective was not to provide an opinion on overall compliance with such provisions.
Accordingly, we do not express such an opinion.

The results of our tests disclosed two instances of noncompliance that are required to be
reported here under Government Auditing Standards. Those instances are detailed in
Findings 1 and 2 in the Summary of Findings and Recommendations section of this report.

This report is intended for the information of Futures Group International, LLC, United States
Agency for International Development, and Special Inspector General for Afghanistan
Reconstruction. Financial information in this report may be privileged. The restrictions of 18
USC 1905 should be considered before any information is released to the public.




Regis & Associates, PC
Washington, DC

March 15, 2013



     1400 Eye Street, NW, Suite 425, Washington, D.C. 20005 Tel 202-296-7101 Fax 202-296-7284
               SUMMARY OF FINDINGS AND RECOMMENDATIONS

Finding 1: Adequate records were not retained to support claimed costs

Criteria: Federal Acquisition Regulation Subpart 4.7-Contractor Records Retention, Section
4.703, Policy, states that “…contractors shall make available records, which includes books,
documents, accounting procedures and practices, and other data, regardless of type and
regardless of whether such items are in written form, in the form of computer data, or in any
other form, and other supporting evidence to satisfy contract negotiation, administration, and
audit requirements of the contracting agencies and the Comptroller General for three (3)
years after final payment or for certain records…”

Condition: Costs claimed as “other direct costs” totaling approximately, $35,810 were
unsupported. The costs were for:

      Travel and Travel Related, $6,310;
      Conferences & Meetings, $3,180;
      Office Supplies, $26;
      Equipment, $10,992;
      Medical & Life Insurance, $3,000;
      Purchased Services, $1,569;
      Sales Commission, $7,569;
      Warehouse Expense, $762;
      Local Consultant, $909;
      Bank Charges, $1,149; and
      Cost of Living Adjustment, $344.

As a result of these unsupported costs, indirect costs chargeable to the contract were over-
applied by $7,234, which resulted in unsupported other direct costs, totaling $43,044.

Cause: Futures Group’s management stated that the unsupported costs generally reflected
transactions that occurred during 2006 and 2007, and that their inability to provide the
records supporting the $35,810 was due to lack of sufficient emphasis on the check-out and
re-filing of records during those periods.

Effect: As a result of the condition noted above, it cannot be confirmed that the goods and
services were procured for the amounts reported, and that the U.S. Government received
value for its money. There is also a risk that costs claimed may be unallowable.

Recommendation 1: We recommend that Futures Group refund the claimed amount,
$43,044, if adequate supporting documentation cannot be provided timely.

Future Group’s Response
In its written response, Futures Group’s management concurred with the finding and
recommendation, and stated that they will refund the unsupported costs to USAID, to the
extent that satisfactory transaction records are not identified.


                                              8
Finding 2: Costs claimed were not allowable or reasonable

Criteria: Federal Acquisition Regulation (FAR) Subpart 31.2-Contracts with Commercial
Organizations, Section 201-2, Determining Allowability, states that “…(a) A cost is
allowable only when the cost complies with all of the following requirements: (1)
Reasonableness. (2) Allocability. (3) Standards promulgated by the CAS Board, if
applicable, otherwise, generally accepted accounting principles and practices appropriate to
the circumstances. (4) Terms of the contract. (5) Any limitations set forth in this subpart.”

Also, FAR Subpart 31.205-15- Fines, penalties, and mischarging costs, states that “(a) Costs
of fines and penalties resulting from violations of, or failure of the contractor to comply with,
Federal, State, local, or foreign laws and regulations, are unallowable except when incurred
as a result of compliance with specific terms and conditions of the contract or written
instructions from the contracting officer.”

Condition: Ineligible costs totaling, approximately, $1,997 were included in the “other
direct costs” claimed. We noted that a fine/penalty was charged to the contract, a refund on
airfare was not credited to the contract, and an amount recorded and charged for equipment
purchased was greater than amount on vendor’s invoice. The costs were for:

      Fine/Penalty on Electricity, $454;
      Airfare unapplied refund, $613; and
      Equipment, $930.

As a result of these ineligible costs, indirect costs chargeable to the contract were over-
applied by $404, which resulted in ineligible other direct costs, totaling $2,401.

Cause: Futures Group’s management stated that they could not explain why the airfare
refund was not credited to the contract, and that an inaccurate amount was charged for
equipment due to data entry error that escaped their control process. Futures Group’s
management indicated that the fine/penalty on electricity is an allowable expense under the
contract.

Effect: As a result of the condition noted above, actual costs of the project were not
reflected, which undermines full accountability and transparency required by U.S.
Government.

Recommendation 2: We recommend that Futures Group refund the $2,401 in unallowable
costs claimed and collected.

Future Group Response
In its written response, Futures Group’s management concurred with the finding and
recommendation, and stated that they will refund the ineligible costs to USAID.




                                               9
Appendix A – Futures Group‘s Response to the Draft Report




                           10
11
12
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                           improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                           improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                           improve contracting and contract management
                                            processes;
                                           prevent fraud, waste, and abuse; and
                                           advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
   Reports and Testimonies     site (www.sigar.mil). SIGAR posts all publically released reports,
                               testimonies, and correspondence on its Web site.




To Report Fraud, Waste, and    To help prevent fraud, waste, and abuse by reporting allegations of
                               fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs                 Web: www.sigar.mil/fraud
                                           Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                           Phone Afghanistan: +93 (0) 700-10-7300
                                           Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                           Phone International: +1-866-329-8893
                                           Phone DSN International: 312-664-0378
                                           U.S. fax: +1-703-601-4065




                               Public Affairs Officer
              Public Affairs
                                           Phone: 703-545-5974
                                           Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                           Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
